TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           The Affordable Care Act:
                     An Improved Strategy Is Needed to
                   Ensure Accurate Reporting and Payment
                      of the Medical Device Excise Tax



                                          July 17, 2014

                             Reference Number: 2014-43-043




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
1 = Tax Return/Return Information
2 = Risk Circumvention of Agency Regulation or Statute


Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


THE AFFORDABLE CARE ACT: AN                          device manufacturers registered with the Food
IMPROVED STRATEGY IS NEEDED TO                       and Drug Administration that are required to file
ENSURE ACCURATE REPORTING AND                        a Form 720 and pay the excise tax.
PAYMENT OF THE MEDICAL DEVICE                        In addition, processing controls do not ensure
EXCISE TAX                                           the accuracy of medical device excise tax
                                                     figures reported on paper-filed Forms 720. Our
                                                     analysis of 5,107 Forms 720 processed for the
Highlights                                           quarters ending March 31 and June 30, 2013,
                                                     identified discrepancies in the amount of the
Final Report issued on July 17, 2014                 medical device excise tax and/or taxable sales
                                                     amount captured from 276 paper-filed tax
Highlights of Reference Number: 2014-43-043          returns. TIGTA identified medical device excise
to the Internal Revenue Service Commissioners        tax discrepancies totaling almost $117.8 million
for the Small Business/Self-Employed Division        when comparing the excise tax amount captured
and the Wage and Investment Division.                by the IRS from the Form 720 to the excise tax
                                                     amount TIGTA calculated.
IMPACT ON TAXPAYERS
                                                     Finally, the IRS erroneously assessed
The Affordable Care Act includes a tax provision     219 failure to deposit penalties totaling $706,753
that provides for an excise tax equal to             against businesses filing a Form 720 for the
2.3 percent of the sales price for medical           quarters ending March 31 and June 30, 2013,
devices sold beginning January 1, 2013.              which was designated a penalty relief period.
Manufacturers, producers, and importers are          The IRS had reversed 133 of the 219 penalty
responsible for collecting the medical device        assessments. When TIGTA alerted the IRS of
excise tax and must file a Form 720, Quarterly       the remaining 86 penalties, IRS management
Federal Excise Tax Return. The Joint                 reversed the penalties and issued apology
Committee on Taxation estimated revenues             letters to the affected taxpayers.
from the medical device excise tax of $20 billion
for Fiscal Years 2013 through 2019.                  WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                              TIGTA recommended that the IRS continue
                                                     refining its compliance strategy to include
This audit was initiated as part of our continued    actions that can be taken to identify
coverage of the IRS’s implementation of key          noncompliant manufacturers. TIGTA also
Affordable Care Act tax provisions. The overall      recommended that the IRS conduct a review of
objective of this review was to assess the IRS       the 276 tax returns TIGTA identified to
processing of tax returns reporting the medical      determine the proper excise tax owed, establish
device excise tax and efforts to identify taxpayer   a process to verify the accuracy of the medical
noncompliance.                                       device excise tax amount for paper-filed
                                                     Forms 720, and initiate a process to correspond
WHAT TIGTA FOUND
                                                     with taxpayers to obtain missing taxable sales or
Our review found that both the number of             tax amounts.
Forms 720 filed reporting the medical device
                                                     The IRS agreed with our recommendations and
excise tax and the amount of the associated
                                                     plans to consider alternative strategies for
revenue reported are lower than estimated. The
                                                     identifying noncompliant manufacturers, identify
IRS is attempting to develop a compliance
                                                     programming changes needed to improve the
strategy to ensure that businesses are compliant
                                                     math verification for paper-filed Forms 720, and
with medical device excise tax filing and
                                                     implement procedures for corresponding with
payment requirements and has taken several
                                                     taxpayers if the changes can be accomplished
measures to advise medical device
                                                     within budgetary constraints. The IRS also
manufacturers of the new excise tax. However,
                                                     indicated that about two-thirds of the paper-filed
the IRS cannot identify the population of medical
                                                     tax returns TIGTA identified were reviewed.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 17, 2014


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Affordable Care Act: An Improved Strategy
                             Is Needed to Ensure Accurate Reporting and Payment of the Medical
                             Device Excise Tax (Audit # 201340332)

 This report presents the results of our review to assess the Internal Revenue Service’s processing
 of tax returns reporting the medical device excise tax and efforts to identify taxpayer
 noncompliance. This audit is included in the Treasury Inspector General for Tax
 Administration’s Fiscal Year 2014 Annual Audit Plan and addresses the major management
 challenge of Implementing the Affordable Care Act and Other Tax Law Changes.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Russell P. Martin,
 Acting Assistant Inspector General for Audit (Returns Processing and Account Services).
                                 The Affordable Care Act: An Improved Strategy
                              Is Needed to Ensure Accurate Reporting and Payment
                                        of the Medical Device Excise Tax




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Development of a Compliance Strategy to Identify Medical
          Device Excise Tax Nonfilers Continues to Be a Challenge ......................... Page 4
                    Recommendation 1:........................................................ Page 6

          Processing Controls Do Not Ensure the Accuracy of
          Medical Device Excise Tax Figures Reported on
          Paper-Filed Forms 720 .................................................................................. Page 7
                    Recommendation 2:........................................................ Page 9

                    Recommendations 3 and 4: .............................................. Page 10

          Taxpayers Were Erroneously Assessed Failure to Deposit
          Penalties During the Penalty Relief Period ................................................... Page 10
          Processes Were Timely Developed to Review Applications
          for Medical Device Excise Tax-Exempt Registrations ................................. Page 11

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 18
          Appendix III – Report Distribution List ....................................................... Page 19
          Appendix IV – Outcome Measures............................................................... Page 20
          Appendix V – Management’s Response to the Draft Report ....................... Page 22
             The Affordable Care Act: An Improved Strategy
          Is Needed to Ensure Accurate Reporting and Payment
                    of the Medical Device Excise Tax




                      Abbreviations

BRTF           Business Return Transaction File
CY             Calendar Year
e-filed        Electronically filed
FDA            Food and Drug Administration
FTD            Failure to Deposit
IRS            Internal Revenue Service
NAICS          North American Industry Classification System
TIGTA          Treasury Inspector General for Tax Administration
                            The Affordable Care Act: An Improved Strategy
                         Is Needed to Ensure Accurate Reporting and Payment
                                   of the Medical Device Excise Tax




                                            Background

The Patient Protection and Affordable Care Act of 20101 and the Health Care and Education
Reconciliation Act of 20102 that made amendments to it (collectively referred to as the
Affordable Care Act hereafter) were both signed into law in March 2010. The Affordable Care
Act revenue provisions are expected to generate $438 billion between Fiscal Years 2010 and
2019.3 One such provision is Section 1405 that
provides for an excise tax equal to 2.3 percent of the        Medical devices are devices
sales price for medical devices sold beginning            intended for humans, including any
January 1, 2013. The Joint Committee on Taxation            instrument, machine, or implant
estimated revenues from the medical device excise tax       intended for the diagnosis, cure,
of $20 billion for Fiscal Years 2013 through 2019.        treatment, or prevention of disease.

In general, a taxable medical device is a device
intended for humans that is listed with the Food and Drug Administration (FDA) under section
510(j) of the Federal Food, Drug, and Cosmetic Act4 and 21 Code of Federal Regulations
part 807. Exclusions include eyeglasses, contact lenses, hearing aids, and medical devices
purchased by the general public at retail for individual use5 as well as medical devices exported
outside of the United States.
Manufacturers, producers, and importers (commonly referred to as “manufacturers” or
“businesses” throughout the report) are responsible for collecting the medical device excise tax
and must file a Form 720, Quarterly Federal Excise Tax Return. The medical device excise tax
is reported on Part 1 of Form 720. Manufacturers are required to enter the total sales price
(referred throughout as taxable sales) of all taxable medical devices sold during the quarter and
the total tax due (2.3 percent of the taxable sales). The first quarterly tax returns reporting the


1
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
2
  Pub. L. No. 111-152, 124 Stat. 1029. (See Affordable Care Act, infra).
3
  Joint Committee on Taxation, JCX-17-10, Estimated Revenue Effects of the Amendment in the Nature of a
Substitute to H.R. 4872, the “Reconciliation Act of 2010,” as Amended, in Combination With the Revenue Effects
of H.R. 3590, the “Patient Protection and Affordable Care Act,” as Passed by the Senate and Scheduled for
Consideration by the House Committee on Rules on March 20, 2010 (March 20, 2010).
4
  Pub. L. No. 75-717, 52 Stat. 1040 (1938).
5
  This is known as the retail exemption. This exemption includes devices of a type generally purchased by the
general public at retail for individual use; regularly available for purchase and use by individuals who are not
medical professionals; and not primarily intended for use in a medical institution or office or by a medical
professional. The evaluation of whether the retail exemption applies is based on all the relevant facts and
circumstances.
                                                                                                          Page 1
                              The Affordable Care Act: An Improved Strategy
                           Is Needed to Ensure Accurate Reporting and Payment
                                     of the Medical Device Excise Tax



medical device excise tax were due April 30, 2013. Figure 1 shows where the medical device
excise tax is reported on Form 720.
             Figure 1: Reporting of the Medical Device Excise Tax on Form 720




    Source: Form 720 for Tax Year6 2013.

Manufacturers are required to submit semimonthly7 payments of excise tax either by the
Electronic Federal Tax Payment System8 or an approved alternative method9 when the tax
liability is $2,500 or more for the quarter. However, if the tax liability is less than $2,500 for the
quarter, then the tax is payable by the tax return due date. Manufacturers are subject to a failure
to deposit (FTD) penalty if 95 percent of the net tax liability is not timely deposited for the
semimonthly period.


6
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due.
7
  A semimonthly period is the first 15 days of a month (which would be the first semimonthly period) or the 16th day
of the month to the last day of the month (which would be the second semimonthly period).
8
  The system designed to process Federal tax deposits and other types of business and individual payments.
9
  Alternative methods include tax professional, financial institution, payroll service, or other trusted third party.
                                                                                                             Page 2
                        The Affordable Care Act: An Improved Strategy
                     Is Needed to Ensure Accurate Reporting and Payment
                               of the Medical Device Excise Tax



This review was performed at the IRS Submission Processing Site in Covington, Kentucky, and
with information obtained from the Small Business/Self-Employed Division Headquarters in
Washington, D.C., and the Wage and Investment Division Headquarters in Atlanta, Georgia,
during the period June 2013 through March 2014. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                              The Affordable Care Act: An Improved Strategy
                           Is Needed to Ensure Accurate Reporting and Payment
                                     of the Medical Device Excise Tax




                                       Results of Review

Development of a Compliance Strategy to Identify Medical Device
Excise Tax Nonfilers Continues to Be a Challenge
The IRS is attempting to develop a compliance strategy to ensure that businesses are compliant
with medical device excise tax filing and payment requirements. Specifically, the IRS has taken
several measures to advise medical device manufacturers of the new excise tax during
implementation, including:
        Developed a communication and outreach plan for taxpayers that might owe the new tax
         on medical device sales.
        Disseminated information regarding the new filing requirements in many different forms,
         including adding information to the IRS website and giving seminars at IRS Nationwide
         Tax Forums.
        Prepared high-level talking points for executives and phone scripts for telephone assistors
         responding to taxpayer questions.
        Revised Form 720 to reflect the tax and updated the associated Form 720 instructions,
         which included adding a paragraph describing the tax in the ‘What’s New’ section on the
         first page and referencing the statute and regulations associated with the new tax filing
         requirements.
However, the IRS still cannot identify the population of medical device manufacturers registered
with the FDA that are required to file a Form 720 and pay the medical device excise tax.
Businesses involved in the production and distribution of medical devices intended for
commercial distribution in the United States are required to register annually with the FDA.10
The IRS has analyzed medical device registration data obtained from the FDA. However, this
data cannot be used to definitively identify manufacturers subject to the medical device excise
tax reporting and payment requirements. Specific exemptions, other safe harbors,11 and retail
exemptions apply, and therefore not all businesses registered with the FDA are engaged in
taxable sales of medical devices. For example, the IRS evaluated the FDA’s registration data as
of May 21, 2013, and identified 16,370 businesses with registered medical devices but estimated


10
  21 Code of Federal Regulations part 807.
11
  Devices or classes of devices that are considered to be of a type generally purchased by the general public at retail
for individual use. For example, devices that qualify as durable medical equipment, prosthetics, orthotics, or
supplies for which payment is available on a purchase basis under Medicare Part B payment rules.
                                                                                                               Page 4
                             The Affordable Care Act: An Improved Strategy
                          Is Needed to Ensure Accurate Reporting and Payment
                                    of the Medical Device Excise Tax



that only 4,500 to 7,800 of these businesses may sell taxable medical devices. The IRS
concluded that a more precise estimate of businesses selling taxable devices could not be made
because the FDA’s requirements for registering are much different than requirements for paying
the excise tax. In addition, the Employer Identification Number12 is not captured as part of the
FDA’s registration process. This increases the difficulty for the IRS to compare tax returns filed
with the FDA’s registration data to identify the population of potential nonfilers.

The North American Industry Classification System code is unreliable for use to
identify businesses that may be subject to excise tax reporting and payment
The North American Industry Classification System (NAICS) is a system for classifying
business establishments by type of economic activity. The NAICS is the standard used by
Federal agencies in classifying business establishments for the purpose of collecting, analyzing,
and publishing statistical data related to the U.S. business economy. Businesses are required to
select from a list of principal business activities and enter the associated NAICS code on the
business income tax returns (e.g., Form 1120, U.S. Corporation Income Tax Return). For
example, businesses that are engaged in the manufacturing of medical equipment and supplies
are supposed to enter NAICS Code 339110 (Medical Equipment and Supplies Manufacturing) on
their tax return. However, our testing found that the use of the NAICS code does not accurately
identify businesses engaged in the sale of medical devices. For example:
        The NAICS Code 339110 is not the only NAICS code used by manufacturers of
         medical devices. We identified 2,007 of 2,965 businesses filing a Form 720 during
         quarters ending March 31 and June 30, 2013, for the medical device excise tax reported a
         NAICS code other than 339110. For example, the other NAICS codes reported by the
         manufacturers included NAICS Code 454390 (Other Direct Selling Establishments);
         NAICS Code 423990 (Other Miscellaneous Durable Goods); and NAICS Code 339900
         (Other Miscellaneous Manufacturing).
        The NAICS code does not always signify a business that is engaged in taxable sales
         of medical devices. We identified 5,443 businesses filing Tax Year 2012 income tax
         returns reporting NAICS Code 339110 that did not file a Form 720 in Tax Year 2013
         reporting the medical device excise tax.
Furthermore, a prior Treasury Inspector General for Tax Administration (TIGTA) report on the
excise tax on indoor tanning services13 cited concerns about the reliability of NAICS codes.
These concerns included that the IRS does not require entry of the NAICS code on filed tax
returns and that the codes cannot be relied upon as being correct. This report further concluded

12
   The Employer Identification Number is a unique nine-digit number issued by the IRS to identify a taxpayer’s
business account.
13
   TIGTA, Ref. No. 2011-40-115, Affordable Care Act: The Number of Taxpayers Filing Tanning Excise Tax
Returns Is Lower Than Expected (Sept. 2011).
                                                                                                           Page 5
                                The Affordable Care Act: An Improved Strategy
                             Is Needed to Ensure Accurate Reporting and Payment
                                       of the Medical Device Excise Tax



that the IRS faced difficulties in identifying the population of businesses subject to the tanning
excise tax. With regard to nonfiling of the required Forms 720, the IRS recognized that some
taxpayers that had not filed required returns may have simply been unaware of the new tax rather
than willfully ignoring the law. In June 2011, the IRS issued notices to approximately
14,000 taxpayers that were identified through various data sources as potentially owing the
tanning excise tax but had not filed a Form 720 during the third or fourth quarters of Calendar
Year (CY) 2010.
The IRS indicated that the experience realized with the indoor tanning tax is not relevant to the
medical device excise tax due to the dissimilarity of the industries and taxpayers involved. IRS
management indicated that they are pursuing the use of the FDA registration database,
Form 637, Application for Registration (For Certain Excise Tax Activities), registration
information, and other information to identify and perfect information on potential medical
device nonfilers. Once the population of nonfilers is identified, the IRS will evaluate
alternatives, which may include the issuance of a notice.

Tax returns filed and taxes reported are lower than original estimates
Our review found that both the number of Forms 720 filed and the amount of the medical device
excise tax revenue being reported are lower than estimated. Figure 2 shows that the IRS
processed 5,107 Forms 720 with reported excise taxes of $913.4 million for the quarters ending
March 31 and June 30, 2013. The IRS estimated between 9,000 and 15,600 quarterly Forms 720
tax returns with excise tax revenue of $1.2 billion for this same period.
                                  Figure 2: Quarterly Return Filings
                               and Medical Device Excise Tax Revenues
                 Quarter (period ended)               Returns Filed              Taxes Reported
                 March 31, 2013                            2,729                   $478.6 million
                 June 30, 2013                             2,378                   $434.8 million
                 Total                                   5,107                  $913.4 million
                Source: TIGTA’s analysis of the Business Return Transaction File (BRTF)14 as of
                September 5, 2013.

Recommendation
Recommendation 1: The Commissioner, Small Business/Self-Employed Division, should
continue refining its compliance strategy to include actions that can be taken to identify
noncompliant manufacturers. This should include an assessment of the benefit of issuing notices



14
     IRS database that contains tax return information originally filed by the taxpayer and transcribed from Forms 720.
                                                                                                               Page 6
                               The Affordable Care Act: An Improved Strategy
                            Is Needed to Ensure Accurate Reporting and Payment
                                      of the Medical Device Excise Tax



to potential nonfilers of the medical device excise tax identified from the manufacturers
registered with the FDA.
           Management’s Response: The IRS agreed with this recommendation. The IRS is
           considering alternative strategies for identifying noncompliant medical device
           manufacturers and may issue notices to potential nonfilers if there appears to be a benefit
           to future tax administration.

Processing Controls Do Not Ensure the Accuracy of Medical Device
Excise Tax Figures Reported on Paper-Filed Forms 720
Our analysis of 5,107 Forms 720 processed for the quarters ending March 31 and June 30, 2013,
identified discrepancies in the amount of the medical device excise tax and/or taxable sales
amount captured from 276 paper-filed tax returns. We identified medical device excise tax
discrepancies totaling almost $117.8 million when comparing the excise tax amount captured by
the IRS from the Form 720 to the excise tax amount we calculated. Our calculated excise tax
amount was computed by taking the taxable sales amount captured by the IRS from the
Form 720 and multiplying this amount by the tax rate (i.e., 2.3 percent).
The discrepancies we identified included instances in which our calculated excise tax amount
was less than the amount of tax captured from the Form 720 (potential overstated tax amount)
and more than the amount of tax captured from the Form 720 (potential understated tax amount).
Figure 3 details the 276 paper-filed Forms 720 for which the tax amount was either overstated or
understated by $100 or more based upon the amount reported or captured for taxable sales.
      Figure 3: Discrepancies on Forms 720 Reporting Medical Device Excise Tax
               Amounts for Quarters Ending March 31 and June 30, 2013
                                    Potential Overstated        Potential Understated
           Description                                                                         Total
                                        Tax Amount                  Tax Amount
 Number of Tax Returns                        225                          51                   276
 Reported Tax Amount on
                                         $43.3 million                 $2.9 million         $46.1 million15
 Forms 720
 TIGTA’s Calculated Tax
                                           $1.7 million               $79.1 million         $80.8 million
 Amount
         Total Discrepancy           $41.6 million                    $76.2 million16      $117.8 million
Source: TIGTA’s analysis of the BRTF as of September 5, 2013.




15
     Total does not equal sum of overstated and understated tax amounts due to rounding.
16
     ***************************1*************************.
                                                                                                       Page 7
                             The Affordable Care Act: An Improved Strategy
                          Is Needed to Ensure Accurate Reporting and Payment
                                    of the Medical Device Excise Tax



The IRS does not systemically verify tax calculations on paper-filed Forms 720
IRS instructions for Form 720 require taxpayers to enter the total sales price of all taxable
medical devices sold during the quarter and the total tax due. The IRS systemically rejects
electronically filed (e-filed) Forms 720 when the medical device excise tax amount does not
equal the sum of taxable sales multiplied by the 2.3 percent tax rate. However, a similar control
is not in place for paper-filed Forms 720. Discrepancies can result from taxpayer errors or tax
examiner errors when inputting data from the paper-filed Forms 720 into IRS computers. Our
analysis of the 276 paper-filed Forms 720 with discrepancies found that:
        106 (38 percent) Forms 720 contained a sales price amount with a decimal that was likely
         excluded, misplaced, or missed during the processing of these tax returns. The IRS
         indicated that during post-processing actions it identified a transcription problem with the
         taxable sales recorded during processing that involved a missing or excluded decimal
         point. For example,
                 Taxpayer A enters taxable sales as $1234567 without a comma or decimal
                 point. During tax return processing, an IRS tax examiner enters this
                 amount as $12,345.67; however, the actual taxable sales was $1,234,567.
         The IRS indicated that this type of discrepancy occurred because the Tax Year 2013
         Form 720 did not contain a cents column for the taxable sales. The IRS revised
         Form 720 for Tax Year 2014 to include a cents column to encourage taxpayers to report
         the taxable sales amount in a dollar and cents format.
        88 (32 percent) Forms 720 contained an excise tax amount that was the same as the
         taxable sales amount.
        82 (30 percent) Forms 720 had no specific pattern in the discrepancy.
IRS management explained that the discrepancies included inaccurate decimal point placement
and transcription errors of the taxable sales amount and not errors resulting in actual lost
revenue. ***************************2**************************
***********************************2******************************************
***********************************2******************************************
***********************************2******************************************
**2**. Otherwise, implementing the changes would result in system downtime and processing
delays. However, we noted that the IRS has programmed a systemic check for e-filed returns
received through the Modernized e-File system17 to identify and reject tax returns with
discrepancies in tax amounts reported on Form 720.



17
 The Modernized e-File system is the IRS’s electronic filing system that enables real-time processing of tax returns
while improving error detection, standardizing business rules, and expediting acknowledgements to taxpayers.
                                                                                                            Page 8
                             The Affordable Care Act: An Improved Strategy
                          Is Needed to Ensure Accurate Reporting and Payment
                                    of the Medical Device Excise Tax



The IRS calculates tax amount or taxable sales when missing on paper-filed
returns
In addition to the discrepancies in tax amounts, we also found that when a filer does not include
the taxable sales or tax amount on a paper-filed Form 720 reporting the medical device excise
tax, the IRS identifies these tax returns for correction during the processing of the tax return.
Contrary to the processing of e-filed Forms 720, which are systemically rejected when the
taxable sales or tax amount is missing, for paper-filed returns the IRS will calculate the missing
amount using whichever amount is present (i.e., taxable sales or tax amount). For example, if
the tax amount is missing, the IRS calculates it by multiplying the taxable sales amount by
2.3 percent. As of September 4, 2013, the IRS’s systemic check for missing medical device sales
price or tax amount identified 261 paper-filed returns requiring correction.
The process the IRS follows in calculating missing amounts for the medical device excise tax is
not consistent with the IRS’s processing procedures for another excise tax. For example, when
taxpayers file a Form 720 to report excise tax on tires,18 the IRS will correspond with the
taxpayer to obtain missing information such as the number of tires. When we brought this to IRS
management’s attention, they explained that paper-filed tax returns are perfected according to
taxpayer intent in the IRS’s Submission Processing Document Perfection Operation. IRS
management also indicated that the IRS has the authority to correspond for missing information.
However, if the taxpayer failed to reply, the IRS would ultimately have to calculate the tax based
on the information provided on the return and follow the taxpayer’s intent.
When the taxable sales or tax amount is missing or the tax return contains potential discrepancies
in tax amount, the IRS cannot ensure the accuracy of the tax return information and may post an
incorrect tax amount to the taxpayer’s account. This could lead to erroneously issued refunds or
erroneous tax assessments.

Recommendations
Recommendation 2: The Commissioner, Small Business/Self-Employed Division, should
conduct a review of the 276 paper-filed tax returns we identified with a discrepancy between the
excise tax amount captured by the IRS from the Form 720 and the excise tax amount we
calculated as being owed to determine the proper excise tax owed.
         Management’s Response: The IRS agreed with this recommendation. The IRS
         indicated that it completed a review of approximately two-thirds of the 276 paper-filed
         returns identified by TIGTA as having a discrepancy. The review included returns with
         both overstatements and understatements; however, these discrepancies had no tax
         consequence. The payments and deposits on those returns equaled the amount of

18
  A taxable tire is any tire of the type used on highway vehicles if wholly or partially made of rubber and if marked
according to Federal regulations for highway use.
                                                                                                             Page 9
                        The Affordable Care Act: An Improved Strategy
                     Is Needed to Ensure Accurate Reporting and Payment
                               of the Medical Device Excise Tax



       reported tax. The IRS indicated that since two-thirds of the 276 identified returns were
       reviewed and no change to the reported tax was found, no further action will be taken
       with regard to those returns.
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Establish a process for paper-filed Forms 720 to math verify the
accuracy of the medical device excise tax amount and correspond with taxpayers on the
corrected taxable amount.
       Management’s Response: The IRS agreed with this recommendation. The IRS will
       identify the programming changes needed to improve math verification for paper-filed
       Forms 720 and will determine if those changes can be accomplished within budgetary
       and resource constraints. Dependent on the deployment of the programming changes, the
       IRS will identify those returns with errors and correspond with the taxpayers to correct
       them. In the event the requested programming changes are not funded, the IRS will
       consider this action closed upon completion of the cost analysis and funding decision.
Recommendation 4: Initiate a process to correspond with taxpayers to obtain missing taxable
sales or tax amounts during the processing of paper-filed Forms 720 reporting the medical device
excise tax.
       Management’s Response: The IRS agreed with this recommendation. Dependent
       on the deployment of programming changes discussed above, the IRS will implement
       procedures for corresponding with taxpayers to obtain missing information needed to
       accurately process paper-filed Forms 720. In the event the requested programming
       changes are not funded, the IRS will consider this action closed upon completion of the
       cost analysis and funding decision.

Taxpayers Were Erroneously Assessed Failure to Deposit Penalties
During the Penalty Relief Period
The IRS erroneously assessed 219 FTD penalties during the period July 8 to December 9, 2013,
totaling $706,753 against businesses filing a Form 720 for the quarters ending March 31 and
June 30, 2013, which was designated as part of the penalty relief period. The IRS and the
U.S. Department of the Treasury recognized that many medical device manufacturers would still
be preparing their systems to comply with the medical device excise tax when the tax went into
effect on January 1, 2013, including the requirement to make semimonthly deposits. As a result,
the IRS issued Notice 2012-77, Interim Guidance and Request for Comments; Medical Device
Excise Tax; Manufacturers Excise Taxes; Constructive Sale Price; Deposit Penalties, on
December 5, 2012, which provided temporary relief from the penalty for manufacturers who fail
to make timely deposits during the first three quarters of CY 2013 so long as the taxpayer shows
a good faith effort to comply.

                                                                                         Page 10
                             The Affordable Care Act: An Improved Strategy
                          Is Needed to Ensure Accurate Reporting and Payment
                                    of the Medical Device Excise Tax



As of January 8, 2014, the IRS reversed 133 of the 219 penalty assessments. The IRS advised us
that these penalty reversals may have occurred due to taxpayer responses to assessment notices.
When we alerted the IRS of the 86 unreversed penalty assessments, it agreed that the penalties
were assessed in error because of employee error and the fact that the Internal Revenue Manual19
was not properly updated. As a result, IRS management reversed the penalties and issued
apology letters to the 86 affected taxpayers we identified. In addition, IRS management
reminded employees working the FTD penalty assessments of the temporary FTD penalty relief
and updated the Internal Revenue Manual to reflect that penalties would not be assessed in the
first three quarters of CY 2013 so long as the taxpayer shows a good faith effort to comply.
Finally, the IRS obtained an extract from the Master File20 listing accounts that contained an
FTD penalty associated with the medical device excise tax for the first three quarters of
CY 2013, reversed erroneous penalty assessments, and issued apology letters to the affected
taxpayers.

Processes Were Timely Developed to Review Applications for Medical
Device Excise Tax-Exempt Registrations
As of December 5, 2013, the IRS had approved Forms 637 for 1,823 of the 2,295 manufacturers
applying for tax-exempt status. The IRS timely ensured that the manufacturers applying for
tax-exempt status were engaged in the manufacturing and/or distribution of medical devices and
had a satisfactory tax filing history. Our review of a statistically valid sample of
77 manufacturers21 with approved Forms 637 found that the IRS reviewed the exempt
registrations within the required 60-day time frame.22 In addition, the IRS correctly ensured that
the businesses were engaged in the manufacturing and/or distribution of medical devices and had
a satisfactory tax filing history.23
Under certain conditions, manufacturers may engage in a nontaxed sale of medical devices that
would otherwise be taxed. Tax-free sales include medical devices sold to a buyer for the purpose
of further manufacture or resale to a buyer for further manufacture as well as sales to a buyer
with a place of business in the United States for export or for resale to a second purchaser for



19
   The IRS’s official policies and procedures.
20
   The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
21
   We used attribute sampling to calculate the minimum sample size of 77 approved Forms 637 based on a
confidence level of 90 percent, an expected rate of occurrence of 5 percent, and a precision rate of ± 4 percent.
22
   Only ***********************1********************************; therefore, based on a one-sided
90 percent confidence level, we are 90 percent confident that at most 90 Forms 637 were not timely processed.
23
   We did not identify any exceptions from a sample of 77 approved Forms 637; therefore, based on a one-sided
90 percent confidence level, we are 90 percent confident that at most 54 Forms 637 have invalid application
approvals.
                                                                                                           Page 11
                         The Affordable Care Act: An Improved Strategy
                      Is Needed to Ensure Accurate Reporting and Payment
                                of the Medical Device Excise Tax



export. To qualify as a tax-free sale, both parties must be registered with the IRS using
Form 637.
In anticipation of an influx of manufacturers applying for tax-exempt registrations, the IRS
developed a provisional registration approval process to expedite evaluation of the tax-exempt
status applications. This process included revising Form 637 and updating the associated
instructions to permit businesses to use Form 637 to request a registration for nontaxed sales of
medical devices. For the provisional registration, the IRS review process did not include a field
visit or inspection of taxpayer records. The IRS included an addendum to the registration letter
to the manufacturer to advise that IRS approval was conditional and subject to further review.
Furthermore, IRS guidance requires a revenue agent or tax examiner within the Small Business/
Self-Employed Division to complete evaluations of Form 637 applications within 60 days from
the date of assignment. The two primary factors, whether provisional or not, considered during
the application review process include the “Activity Test” and the “Satisfactory Tax History
Test.”
      Activity Test: The taxpayer’s business operations show that the applicant is regularly
       engaged in the activity for which the registration is requested.
      Satisfactory Tax History Test: The taxpayer has a satisfactory tax filing history
       including deposit, payment, reporting, and claims for all Federal taxes.
Accurately processing approvals for tax-exempt registration provides the IRS a reasonable basis
for entrusting these manufacturers to engage in nontaxed sales of medical devices that would
otherwise be taxed.




                                                                                            Page 12
                             The Affordable Care Act: An Improved Strategy
                          Is Needed to Ensure Accurate Reporting and Payment
                                    of the Medical Device Excise Tax



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to assess the effectiveness of IRS processing of tax returns reporting
the medical device excise tax and efforts to identify taxpayer noncompliance. To accomplish
this objective, we:
I.       Evaluated the effectiveness of IRS controls to verify the accuracy of the medical device
         excise tax amount reported by manufacturers on Form 720, Quarterly Federal Excise Tax
         Return.
         A. Reviewed the IRS’s Internal Revenue Manual1 and Modernized e-File system2
            business rules and met with IRS personnel to identify processing controls to ensure
            the accuracy of the medical device excise tax amount reported on Form 720.
         B. Compared the filing requirements between paper- and e-filed Forms 720 to identify
            inconsistencies between the two filing methods.
         C. Conducted a walkthrough at the IRS Submission Processing Site in Covington,
            Kentucky, to observe measures taken by the Error Resolution and Document
            Perfection Operation functions to ensure the accuracy of the medical device excise
            tax amounts reported on Forms 720 during processing.
         D. Reviewed management information reports to identify the volume of error conditions
            associated with Forms 720 reporting the medical device excise tax.
         E. Assessed the accuracy of the medical device excise tax amount reported on Form 720.
             1. Identified 5,107 Forms 720 processed for the quarters ending March 31 and
                June 30, 2013, reporting medical device excise taxes from the BRTF3 as of
                September 5, 2013.
             2. Evaluated the accuracy of the tax amount recorded on the BRTF.
                  a) Calculated the medical device excise tax based on the taxable sales recorded
                     on the BRTF multiplied by the tax rate of 2.3 percent.



1
  The IRS’s official policies and procedures.
2
  The Modernized e-File system is the IRS’s electronic filing system that enables real-time processing of tax returns
while improving error detection, standardizing business rules, and expediting acknowledgements to taxpayers.
3
  IRS database that contains tax return information originally filed by the taxpayer and transcribed from Forms 720.
                                                                                                            Page 13
                              The Affordable Care Act: An Improved Strategy
                           Is Needed to Ensure Accurate Reporting and Payment
                                     of the Medical Device Excise Tax



                  b) Compared the excise tax amount calculated in Step I.E.2.a to the medical
                     device excise tax recorded on the BRTF and posted to the Master File.4
                  c) Identified 276 Forms 720 for which the medical device excise tax amount was
                     either overstated or understated by $100 or more based upon the reported
                     taxable sales amount, resulting in a potential difference of $117.8 million in
                     excise taxes.
II.      Assessed the effectiveness of IRS efforts to promote taxpayer compliance and identify
         nonfilers.
         A. Identified IRS communication materials available to inform the business community
            about the medical device excise tax and return filing and reporting requirements.
         B. Discussed with IRS management the post-processing compliance measures as
            planned for the medical device excise tax.
         C. Discussed with IRS management their efforts to identify nonfilers.
         D. Assessed the use of NAICS5 codes to identify nonfilers.
             1. Identified 6,266 Tax Year6 2012 tax returns with gross receipts greater than $0
                reporting NAICS Code 339110 (Medical Equipment and Supplies
                Manufacturing).
             2. Of the 6,266 Tax Year 2012 tax returns identified in Step II.D.1, determined that
                5,575 Tax Year 2012 tax returns did not report the medical device excise tax on a
                Form 720 for the quarters ending March 31 and June 30, 2013, processed through
                September 5, 2013.
             3. Of the 5,575 Tax Year 2012 tax returns identified in Step II.D.2, determined that
                5,443 Tax Year 2012 tax returns were not associated with a business approved by
                the IRS for tax-free sales (i.e., the IRS had no record of Form 637, Application for
                Registration (For Certain Excise Tax Activities), for these taxpayers).




4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
5
  The Office of Management and Budget’s NAICS is a system for classifying business establishments by type of
economic activity. The NAICS is the standard used by Federal statistical agencies in classifying business
establishments for the purpose of collecting, analyzing, and publishing statistical data related to the U.S. business
economy.
6
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due.
                                                                                                              Page 14
                             The Affordable Care Act: An Improved Strategy
                          Is Needed to Ensure Accurate Reporting and Payment
                                    of the Medical Device Excise Tax



III.     Evaluated the effectiveness of IRS procedures to assess eligibility requirements for
         manufacturers requesting exemption to the excise tax and to ensure that the applications
         were timely processed.
         A. Reviewed the Internal Revenue Manual to identify the criteria for determining
            whether a business should be granted tax-exempt status during the Form 637 review
            and approval process.
         B. Discussed with IRS management the provisional Form 637 application approval
            measures to determine whether it lessened the review process required by the Internal
            Revenue Manual.
         C. Obtained from the IRS a listing of 2,295 businesses filing a Form 637 requesting a
            Letter of Registration for tax-free sales and selected a statistically valid random
            sample of 77 manufacturers7 from the 1,823 businesses receiving an approved
            registration for tax-exempt medical device excise tax sales during the period
            January 1 through December 5, 2013.
             1. Reviewed IRS documentation of the Form 637 registration review and determined
                whether the manufacturer met the activity requirement8 for the registration and
                had a satisfactory tax filing, deposit, payment, and claim history for all Federal
                taxes of the applicant/registrant.
             2. Determined that all 77 application approvals for tax-free sales were supported by
                a review of the business activity and tax filing history. Based on a one-sided
                90 percent confidence level, we are 90 percent confident that at most
                54 Forms 637 in the population have invalid application approvals.
             3. Compared the completion date to the assignment date and determined that
                ****************************1*************************************
                **************1*****************. Based on a one-sided 90 percent
                confidence level, we are 90 percent confident that at most 90 Forms 637 in the
                population were not timely processed.




7
  We used attribute sampling to calculate the minimum sample size of 77 approved Forms 637 based on a
confidence level of 90 percent, an expected rate of occurrence of 5 percent, and a precision rate of ± 4 percent. We
selected a statistically valid random sample to help quantify the extent of the problem over the entire population. A
contract statistician assisted with developing our sampling projections.
8
  The taxpayer is regularly engaged, or will be regularly engaged, within a reasonable time, in the activity for which
the registration is being requested (i.e., tax-free sales of medical devices).
                                                                                                             Page 15
                             The Affordable Care Act: An Improved Strategy
                          Is Needed to Ensure Accurate Reporting and Payment
                                    of the Medical Device Excise Tax



IV.      Determined if the IRS had effective processes and procedures to prevent erroneous
         assessments of the FTD penalty.
         A. Identified from the Business Master File9 221 FTD penalties totaling $707,203
            assessed through December 28, 2013, on Forms 720 reporting the medical device
            excise tax for the quarters ending March 31 and June 30, 2013, processed through
            September 5, 2013.
         B. Of the 221 FTD penalties identified in Step IV.A, determined that 219 FTD penalties
            totaling $706,753 were erroneously assessed.
Data validation methodology
During this review, we relied on Tax Year 2013 Form 720 data extracted from the BRTF for
Processing Year10 2013 as of September 5, 2013, and taxpayer account transaction data extracted
from the Business Master File through the end of Processing Year 2013 that were provided by
the TIGTA Office of Investigations’ Strategic Data Services. To assess the reliability of
computer-processed data, programmers within Strategic Data Services validated the data extract
files, while we ensured that each data extract contained the specific data elements we requested
and that the data elements were accurate. For example, we reviewed judgmental samples11 of the
data extracts and verified that the data in the extracts were the same as the data captured in the
IRS’s Integrated Data Retrieval System.12 We also validated the IRS’s listing of Form 637
applications for the medical device excise tax by comparing selected data fields for our
statistically valid sample of records to the case file information obtained from the Issue
Management System.13 As a result of our testing, we determined the data used in our review
were reliable.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: IRS communication and
outreach efforts to ensure that tax returns were accurately and timely filed, policies and

9
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
10
   The calendar year in which the tax return or document is processed by the IRS.
11
   A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
12
   IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
13
   The Issue Management System is designed to be used by revenue agents and specialists during the process of
performing reviews of Form 637 applications. It supports issue identification, tracking, and management through a
suite of automated tools.
                                                                                                            Page 16
                         The Affordable Care Act: An Improved Strategy
                      Is Needed to Ensure Accurate Reporting and Payment
                                of the Medical Device Excise Tax



procedures to ensure that taxpayers are filing required returns and paying the correct amount of
tax, and actions taken to ensure that approved applications for exemption to the tax are properly
processed. TIGTA’s contract statistician assisted with developing projections of potentially
invalid and untimely Form 637 application approvals.




                                                                                          Page 17
                        The Affordable Care Act: An Improved Strategy
                     Is Needed to Ensure Accurate Reporting and Payment
                               of the Medical Device Excise Tax



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Diana M. Tengesdal, Acting Director
Darryl Roth, Audit Manager
Van Warmke, Lead Auditor
Kyle Bambrough, Senior Auditor
Jack Laney Jr., Auditor
Kevin O’Gallagher, Information Technology Specialist
Steven Vandigriff, Information Technology Specialist




                                                                                        Page 18
                       The Affordable Care Act: An Improved Strategy
                    Is Needed to Ensure Accurate Reporting and Payment
                              of the Medical Device Excise Tax



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Affordable Care Act Office SE:ACA
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Specialty Programs SE:S:SP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PEI




                                                                                 Page 19
                             The Affordable Care Act: An Improved Strategy
                          Is Needed to Ensure Accurate Reporting and Payment
                                    of the Medical Device Excise Tax



                                                                                                Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reliability of Information – Potential; $117.8 million1 in excise taxes on 276 taxpayer
    accounts that are incorrectly recorded on the IRS’s BRTF2 for Tax Year3 2013 (see page 7).

Methodology Used to Measure the Reported Benefit:
We conducted reliability testing of the 5,107 Forms 720, Quarterly Federal Excise Tax Return,
reporting the medical device excise tax as part of our evaluation of IRS controls to verify the
accuracy of the medical device excise tax amount on the IRS’s BRTF. We identified
276 paper-filed Forms 720 for the quarters ending March 31 and June 30, 2013, processed
through September 5, 2013, that contained discrepancies in the amount of the medical device
excise tax or taxable sales amount. We identified total discrepancies, in terms of the medical
device excise tax amount, of almost $117.8 million by comparing the excise tax amount captured
by the IRS from the Form 720 to the excise tax amount we calculated. We based our calculated
excise tax amount on the taxable sales amount captured by IRS from the Form 720 and
multiplied this amount by the tax rate (i.e., 2.3 percent).
For these 276 returns, the calculated tax amount was either overstated or understated by $100 or
more. This includes 225 returns for which our calculated excise tax amount was less than the
amount of tax captured from the Form 720 (potential overstated tax amount) with a total
difference of $41.6 million and 51 returns for which our calculated excise tax amount was more
than the amount of tax captured from the Form 720 (potential understated tax amount) with a
total difference of $76.2 million. We added the $41.6 million to the $76.2 million to arrive at the
$117.8 million.




1
  **************************1*********************************.
2
  IRS database that contains tax return information originally filed by the taxpayer and transcribed from Forms 720.
3
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due.
                                                                                                           Page 20
                         The Affordable Care Act: An Improved Strategy
                      Is Needed to Ensure Accurate Reporting and Payment
                                of the Medical Device Excise Tax



Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Actual; $378,835 in erroneous FTD penalty assessments
    on 86 taxpayer accounts in Tax Year 2013 (see page 11).

Methodology Used to Measure the Reported Benefit:
The IRS processed 5,107 Forms 720 reporting the medical device excise tax for quarters ending
March 31 and June 30, 2013, through September 5, 2013. We identified 221 FTD penalties
totaling $707,203 that were assessed on the Forms 720 through December 28, 2013. From this
population, we determined that 219 FTD penalties totaling $706,753 were assessed erroneously
since the taxpayers were provided temporary relief from the penalty if they failed to make timely
deposits during the first three quarters of CY 2013. We found that 133 of the 219 penalty
assessments had been reversed. However, 86 (39 percent) of the 219 erroneous FTD penalties
totaling $378,835 remained on the taxpayer accounts as of January 8, 2014.




                                                                                         Page 21
         The Affordable Care Act: An Improved Strategy
      Is Needed to Ensure Accurate Reporting and Payment
                of the Medical Device Excise Tax



                                                 Appendix V

Management’s Response to the Draft Report




                                                       Page 22
   The Affordable Care Act: An Improved Strategy
Is Needed to Ensure Accurate Reporting and Payment
          of the Medical Device Excise Tax




                                                 Page 23
   The Affordable Care Act: An Improved Strategy
Is Needed to Ensure Accurate Reporting and Payment
          of the Medical Device Excise Tax




                                                 Page 24
   The Affordable Care Act: An Improved Strategy
Is Needed to Ensure Accurate Reporting and Payment
          of the Medical Device Excise Tax




                                                 Page 25
   The Affordable Care Act: An Improved Strategy
Is Needed to Ensure Accurate Reporting and Payment
          of the Medical Device Excise Tax




                                                 Page 26
